-
                       Closeout of M90050022

      The case began with the receipt on 5/15/90 of a letter to
 philip sunshine, Counsel to the IG, from .
                                    -
 dated 5/8/90. He had !'several .complaints of scientific
 misconduct regardingu the work of
                   and                    under NSF g r a n w
          as reported in thdir book
 His letter alleged that the authors "obfuscated issues of their
 originality and priority by not citing the works of others11,
 "made false claims to originality and priorityu, Itignored
 evidence of different finding^^^, and used llmisleadingtt
 statistics; he also said the authors llwillnot give access to the
 identifying records of their raw data.!! He enclosed a copy of a




-
 correspondence he had received from


 provide him with the raw data from their research.         I



      -sent               a substantivelv identical letter, also
 dated 5/8/90, to Dr. Price at OSI, rega;ding two "NICHD" grants.
 After Dr. Zwolenik discussed the aaenciesf relative fundina with
            and Dr. Offen at OSI, it was agreed that NSFIOIG would
 handle this case.
      In a telephone conversation with Dr. Zwolenik, Ass't IG for
 Oversight,l-4             agreed to send a more direct statement
 of his allegations of misconduct. He sent a letter listing three
 of "what I think are false claimsu: (1) that the "book is based
 on ... the largest study of                      ever undertaken" ;
 (2) that they lqdiscoveredho%isleading   [the?dministrative
 Officeas] gross statistics areu; and (3) the reasons they gave
 for selecting the three states sampled in their study. Dr.
 Zwolenik confirmed with him that no more elaboration of his
 allegations would be forthcoming.
                        9- c
        My examination of  --                   review (which was
 published at                             (1990)) and letters made it
 clear that t         h       l         g the substance in the book do
 not meet the NSF definition of misconduct. Rather,
 0 objection to the work reported in the book IS the type
 of scholarly dispute that is well handled in the
 academic/scientific community by the publication of substantive
 book review articles such as his and                             (0
                     There was no a l l e g a w n of affirmative
 misrepresentation; just differences -- albeit extreme differences
-(1989)).
 -- of opinion regarding the interpretation of data.
      The NSF has an explicit policy on "Openness of scientific
 Communicationf1(see publication No. NSB 88-215), and has informed
 all grantee institutions that NSF "expects investigators to share
 with other researchers, at no more than incremental cost and
 within a reasonable time, the primary data, samples, physical
   - -
collections, and other supporting materials created or gathered
in the course of researchtf(NSF Notice No. 106). I talked to
rawtz:dana

       In her letters,
                          regarding the allegation of withheld
              round tKatpthis allegation was based upon
misunderstandings.
                                       had given the impression that
 the identifiers for the database, which would allow one to check
 each record in the database against the-           file it had been
 coded from, existed but that she could not provide the database
 to                 with those identifiers included, because of
 HHS1s Human Sublects Regulation 745 CFR part 46). This would
 obviously be bogus, because (A) on the cover sheet of the
 proposal, the PIS had stated the proposal was exempt from the
 HSR under 45 CFR section 46.101(b) ( 3 ) , and (B) it was in fact
 exempt under 45 CFR section 46.101(b)(5).       When I talked to
            however, she said that the identifiers were
-database           from the start. because of the intermetation
 of the HSR by       1nstitutional'~eviewBoard. Thus, 'they were
 not refusing to provide the database with the identifiers: they
 couldntt, because the identifiers weren't put in to begin hith.
 They were willing, however, to provide to  a- -
 complete list of the cases they sampled, should he desire to




                                -
 verify each datum.
      - 4            said that they had offered to provide Prof.
-with          a machine-readable copy of the raw data file; they
 were not, however, interested in providing the additional
 analyses of the data that he was effectively requesting. This
 seemed entirely reasonable, since he is as able as they to
 generate whatever manner of printouts, and further statistical
 analyses, that he desires. In these circumstances, I believe
 Profs. (                    and        have demonstrated




-
 sufficient wllllngness to comply with NSFts policy in favor of




                                                         -
 openness of scientific communication. It is unfortunate that
 their IRB erroneously compelled them to omit useful information
 from the database, rendering verification of their data
 exceedingly difficult.                                     ,


     I wrote tod na
                  h
                  -d               informed him that his
substantive allegations regarding the book were not misconduct
under our regulation. I also informed him of the result of my
discussion with-regarding                 the raw data. In an
effort to minimize future misunderstanding, I wrote to
         also, telling her what I told -about          our
conversation. This case should be closed.
